Visa Credit Card Account
Agreement and Disclosures
This Visa Credit Card Account Agreement (“Agreement”) and the Account Disclosures (“Account Disclosure”) given to you when you opened your Card account (“Account”) will govern your Visa Platinum, Gold, Classic, or Secured Credit Card and
Account issued by Denali Federal Credit Union (“Credit Union”). In this Agreement,
the words "you," "your," "yours," "applicant," and "Borrower" mean any person who
signs the application for this Account, any joint obligor, guarantor, authorized user, or
the person whose name is embossed on the Card. The words "we," "us," "our," and
"Credit Union" mean Denali Federal Credit Union. The word "Card" means any one
or more credit cards issued under this Account. If you sign an application for this
Account or sign or use any Card or PIN, or allow others to use the Card or PIN, you
and they will have accepted this Agreement just as if you and they signed it, and you
and they, jointly and severally, will be bound by the following terms and conditions
which will govern this Account.
1. You Promise to Pay
You promise to pay us all amounts, plus any Interest Charges, which arise from use
of the Card or Account by you or any other person, and to be jointly and severally
liable with such a person, unless such other person does not have actual, implied, or
apparent authority for such use, and you received no benefit from the use. You
promise to pay us either by direct payment or by automatic transfers from shares or
by payroll deduction.
2. Account Access
You must sign the Card to use it. Once you have signed the Card, you can use it to
buy or lease goods, services, or insurance wherever the Card is honored, up to the
full amount of your Credit Line. You may use your Account to get cash advances
from us. You may also use your Card to get a cash advance from participating financial institutions and to access your line of credit at automatic teller machines
(“ATMs”) within the VISA network or any other ATMs.
3. Credit Line
If we approve your application, this Agreement will constitute a revolving line of credit
for an amount which will be the Credit Line under your Account. We will advise you of
the amount of your Credit Line. That amount will be the maximum amount you may
have outstanding at any one time. You agree not to attempt to obtain more credit than
the amount of your Credit Line. However, if you temporarily exceed your Credit Line,
you agree to repay the excess immediately, even if we have not yet billed you. Obtaining such credit does not increase your Credit Line. We retain the right to increase or
decrease your Credit Line at any time. Any increase or reduction in the amount of your
Credit Line will be shown on your monthly statement or by separate notice together with
any changes in the applicable Minimum Monthly Payments. Your eligibility for this
Credit Line is determined by our loan policy and may be terminated at our sole discretion, without demand or notice. You may close your Credit Line at any time by notifying
us in writing and returning all Cards cut in half. If you terminate this Agreement or if we
terminate or suspend your credit privileges, the provisions of this Agreement and your
liability hereunder shall otherwise remain in full force and effect until you have paid us
all sums due us under this Agreement and returned all Cards.
4. Minimum Monthly Payment
We will mail you a statement every month if your Account has a balance. You agree
that you will pay each month not less than the minimum monthly payment on or before
the closing date. The minimum monthly payment will be 3.0% of your outstanding
balance shown on your statement (“New Balance”), or $20, whichever is greater. If
your outstanding balance is less than $20, you agree to pay the balance in full. In
addition to the minimum monthly payment, you agree to pay any “Overlimit Amount”
and any amount past due shown on your statement each month by the due date
shown on your Statement. You may pay in full for all your purchases and cash advances each month, or you may repay in monthly installments. We can accept late
payments or partial payments, or checks, drafts, or money orders marked “payment in
full” without prejudice to our rights under this Agreement, which are hereby explicitly
reserved. A credit posting from a merchant or reversal of fees does not constitute a
minimum payment. Payments will be applied first to interest, then to purchase balances, then to cash advance and balance transfer balances, and finally to any other fees,
charges, or amounts owed. The minimum monthly payment may be allocated at the
Credit Union’s discretion to pay off lower rate balances, such as promotional offers,
before higher rate balances, such as cash advances or purchases. Payments in excess of the minimum monthly payment will be allocated first to higher rate balances,
as applicable. Payments received at: Denali Federal Credit Union, 440 E. 36TH Ave.,
Anchorage, Alaska 99503, at one of our branches or via Online Banking at or before
7:00 PM Alaska Time on any business day will be credited to your Account as of that
date; payments received by mail at the address above after 7:00 PM Alaska Time or
on a weekend will be posted to your Account as of the next business day.
5. Security Interest
By signing your application, to secure your Account, you granted us a purchase money
security interest under the Alaska Uniform Commercial Code in any goods you purchase through your Account. If you default, we will have the right to recover any of
these goods that have not been paid for through application of your payments in the
manner described in Section 4. In addition, you granted us a security interest in all your
shares and deposits, present and future, and all accounts (except Individual Retirement
Accounts and Keogh Accounts) with the Credit Union to secure your Account and
agree, upon default, the Credit Union may apply all that is secured to pay any amounts
due under this Agreement, without further notice to you. You further agree that collateral securing other loans with the Credit Union (except loans secured by real property)
© 2016 Farleigh Wada Witt. All rights reserved.

440 E. 36th Avenue
Anchorage, AK 99503
PH: 907-257-7200, option 3
TF: 800-764-1123, option 3
www.denalifcu.org
also secures this Account. If you have signed a separate security agreement, the Credit
Union will have a security interest on all funds in any Credit Union account in which you
have an ownership interest, regardless of the source of funds.
6. Periodic Statements
Each month, if your outstanding balance exceeds $1, we will send you a statement
showing new purchases, cash advances, payments, and credits made to your Account during the billing period, your Previous Balance, your "Total New Balance,"
any Interest Charge, and any other charges. Your statement also will identify the
remaining Credit Line available and the Minimum Monthly Payment you must make
for that billing period and the date it is due. For statement verification purposes, you
agree to retain copies of transaction slips resulting from each purchase, each advance, and other transaction on your Account. Unless you notify us of a billing error
as described below, you accept your monthly statement as an accurate statement of
your Account with us.
7. Circumstances Under Which a Service Charge Will Be Imposed
The total outstanding balance of purchases, balance transfers, and cash advances
in the Account on the closing date of a billing period, including any Interest Charge,
will be shown on the Periodic Statement for that billing period as the "New Balance."
a. Cash Advances and Balance Transfers. We begin charging interest on cash
advances and balance transfers from the date of each transaction. There is no
time period within which to pay to avoid paying interest on cash advances or
balance transfers.
b. Purchases. Your due date is at least 25 days after the close of each billing period.
An Interest Charge will be imposed on the portion of purchases included in the New
Balance that is not paid by the due date. This “grace period” allows you to avoid
paying interest on purchases for a billing period. If you do not pay the New Balance
for purchases within the grace period, interest will accrue on any unpaid purchase
transactions from the first day of the billing period in which the payment is due, and
on new purchase transactions from the date of the transaction.
8. Method Used to Determine the Balance on Which the Interest
Charge May Be Computed and Amount of Interest Charged
The Credit Union figures the Interest Charge on your Account by multiplying the "Average Daily Balance" of purchases, balance transfers, and cash advances for your
Account (including current transactions) by the Monthly Periodic Rate. To get the
"Average Daily Balance" we take the beginning balance of your Account each day,
add any new purchases or cash advances, and subtract any payments or credits,
unpaid Interest Charge and unpaid late charges. This gives us the daily balance.
Then, we add up all the daily balances for the billing period and divide the total by
the number of days in the billing period. This gives us the "Average Daily Balance."
To get the “Monthly Periodic Rate,” we divide the Annual Percentage Rate in effect
for the billing period by 12.
9. Periodic Rate and Corresponding Annual Percentage Rate.
a. Standard Rates. The periodic rate and corresponding Annual Percentage Rate
for your Account will vary based on an index, which is the highest Prime Rate
published in The Wall Street Journal (Western Edition). We add a margin to the
index. The total of the index plus the margin is the Annual Percentage Rate. The
amount of the margin may be based on your credit profile. The margin for your
Account, and the current periodic rate and corresponding Annual Percentage
Rate(s) used to compute the Interest Charge are disclosed to you in the Account
Disclosure provided with this Agreement when you open your Account. The
periodic rate and Annual Percentage Rate may change on the first day of each
billing cycle based on the index rate published on the last business day of the
prior billing cycle. The Annual Percentage Rate will not exceed 18.00%.
b. Introductory Rates. At our discretion, we may offer you an introductory or
promotional Annual Percentage Rate for your Account. Any introductory or
promotional Annual Percentage Rate will be subject to the terms of the offer and
this Agreement. We will provide you with information on the offer, including the
time period the introductory or promotional Annual Percentage Rate is in effect in
the Account Disclosure or in other materials that we send to you about the offer
after you receive your Credit Card.
10. Conditions Under Which Other Charges May Be Imposed
You agree to pay the following fees and charges on your Account:
a. Annual Fee. For share secured accounts, there is a $15 annual fee. There is no
annual fee for other accounts.
b. Late Fee. If we do not receive your full minimum payment on or before the due
date, you agree to pay a late fee of up to $15.
c. Returned Item Fee. If any check or draft we receive from you as payment for
any amount you owe to us is returned to us unpaid, you agree to pay a returned
item fee of up to $20.00.
d. Card Replacement Fee. You agree to pay $5 for each replacement Card you
request. If you request overnight delivery of a replacement card, you will pay a
rush fee of $30 - $50 (depending on timing and your location).
e. Photocopy Fee. You will pay $3 for each copy of a statement or sales draft you
request unless the request relates to a billing error that we made.
f. Research/Chargeback Fee. You will pay $15.00 for each request to research a
charge or chargeback or other issue on your account, unless the request relates
to a billing error that we made.

Credit Card Agreement #M-117483 ▪ February 2016 ▪

1

Denali Federal Credit Union  Visa Card Account Agreement and Disclosures
g. PIN Change Fee. You will pay $5 each time you request a change to your PIN.
h. Attorney's Fees and Costs. If you fail to make any payment when due or are
otherwise in default under any part of this Agreement, you agree to pay us all
costs to collect your Account, including court costs and reasonable attorney fees
whether or not there is a lawsuit, and fees on any appeal and fees for bankruptcy
proceedings, appeals, and any post-judgment collection services, if applicable.
These fees and costs may be added to your Account balance and will bear
interest at the Annual Percentage Rate in effect at that time.
11. Conditions of Card Use
The use of your Card and Account are subject to the following conditions:

17. Credit Information/Financial Statements
You authorize us to release information to others (e.g., credit bureaus, merchants,
and other financial institutions) regarding the status and history of your Credit Line.
You agree to provide us, at any time we deem necessary, with a current financial
statement and/or updated credit information upon request. We may investigate your
credit directly or through a credit reporting agency.

a. Use. Your Card and Account may be used only for valid and lawful
purposes. You may not use your Card (i) to make Purchases or obtain Cash
Advances for any illegal transaction, or (ii) for any internet or online gambling
transactions. If you use your Card for any illegal or prohibited transaction, this
Agreement also applies to such transaction and you agree to pay any and all
amounts related to such transaction pursuant to the terms of this Agreement. We
may, at our sole discretion and without warning, restrict the use of or terminate
your Card if we notice excessive use of your Card or other suspicious activities or
if we reasonably believe the Card is or has been used for one or more illegal or
prohibited transactions.
b. Ownership of Cards. Any Card or other credit instrument or device which we
supply to you is our property and must be returned to us, or to any person whom
we authorize to act as our agent, or to any person who is authorized to honor the
Card, immediately according to instructions. The Card may be repossessed at
any time in our sole discretion without demand or notice. You cannot transfer
your Card or Account to another person.
c. Honoring the Card. We may decline to honor any transaction for any reason.
Neither we nor merchants authorized to honor the Card will be responsible for
the failure or refusal to honor the Card or any other credit instrument or device
we supply to you. If a merchant agrees to give you a refund or adjustment, you
agree to accept a credit to your Account in lieu of a cash refund.
d. Currency Conversion/International Transaction Fee. Purchases and cash
advances made in foreign countries will be billed to you in U.S. dollars. The
currency conversion rate for international transactions as established by VISA
International, Inc. is a rate selected by VISA from the range of rates available in
wholesale currency markets for the applicable central processing date, which
rate may vary from the rate VISA itself receives, or the government-mandated
rate in effect for the applicable central processing date. In addition, you will be
charged an International Transaction Fee of up to 2% of the transaction amount
for any card transaction made in a foreign country.
e. Notices and Payments. All notices will be sent to your address as shown in the
application. You agree to advise us promptly if you change your mailing address. All
payments should be mailed to us at the remittance address shown on your monthly
statements. Payments received at that address will be credited to your Account as
of the date received. Written notices and inquiries to us must be sent to: Card
Services, Denali Federal Credit Union, 440 E. 36TH Ave., Anchorage, Alaska 99503.
f. Personal Identification Number. If we issue you a Personal Identification
Number ("PIN") for use with your Card in accessing your line of credit at ATMs,
these numbers are issued to you for your security purposes. These numbers are
confidential and should not be disclosed to third parties. You are responsible for
safekeeping your PIN. You agree not to disclose or otherwise make available
your PIN to anyone not authorized to sign on your Account. To keep your
Account secure, please do not write your PIN on your Card or keep it in the same
place as your Card.
12. Loan Protection
Loan Protection coverage is not required for any extension of credit under this
Agreement.

19. Billing Errors Notice, Your Credit Card Billing Rights
Keep this document for future use. This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.

13. Default
You will be in default under this Agreement if any of the following occur: (a) Any Minimum Monthly Payment is not made when due; (b) You become insolvent, bankrupt,
or you die; (c) You violate any part of this Agreement, or any other agreement with
us; or (d) If we reasonably deem ourselves insecure with respect to your Account.
Upon default, we may declare the entire unpaid balance immediately due and payable, and you agree to pay that amount plus any attorney's fees and costs we incur,
including fees and costs in any appeal or bankruptcy proceeding. We can delay enforcing any right under this Agreement without losing that right or any other right. We
will notify you in writing of any such action as soon as practical if it occurs.
14. Governing Law
This Agreement will not take effect until it is approved by us. This Agreement shall
be governed by the laws of the State of Alaska.
15. Severability
If any provision of this Agreement is held invalid, the remaining provisions that are
severable shall remain in effect.
16. Loss or Theft of Card
You agree to notify us immediately of the loss, or the theft, or the use without your
permission, of any Card or other credit instrument or device which we supply to
you. You may be liable for the unauthorized use of your card. You will not be liable for unauthorized use which occurs after you notify us in writing at Denali Federal Credit Union, 440 E. 36th Ave., Anchorage, Alaska 99503; or by phone at
(907) 257-7200 of loss, theft, or possible unauthorized use. In any case, your liability shall not exceed $50.

© 2016 Farleigh Wada Witt. All rights reserved.

18. Amendments
We reserve the right to change any terms or conditions of this Agreement at any
time, to the extent permitted by applicable law. We will notify you of the changes to
this Agreement as required by law.

What To Do If You Find A Mistake On Your Statement. If you think there is an
error on your statement, write to us at: Denali Federal Credit Union, 440 E. 36TH
Ave., Anchorage, Alaska 99503. In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do,
we are not required to investigate any potential errors and you may have to pay the
amount in question.
What Will Happen After We Receive Your Letter. When we receive your letter, we
must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain
to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of
the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report
you as delinquent without also reporting that you are questioning your bill. We must
tell you the name of anyone to whom we reported you as delinquent, and we must
let those organizations know when the matter has been settled between us. If we do
not follow all of the rules above, you do not have to pay the first $50 of the amount
you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases. If you are
dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase. To use this
right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more than
$50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
2. You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at the above address. While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
20. Acknowledgment
You understand and agree to the terms and conditions in this Agreement and the
Fair Credit Billing Notice. You acknowledge that you have received a copy of this
Agreement, the Account Disclosure, and the Fair Credit Billing Notice. This Agreement is a final expression of the agreement between you and the Credit Union.

Credit Card Agreement #M-117483 ▪ February 2016 ▪

2

